OIG Audit Report GR-30-98-015
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Chesterfield County, Virginia Police Department
 
GR-30-98-015
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of the grants awarded by the U.S. Department of Justice, Office of Community
Policing Services (COPS), to the Chesterfield County, Virginia Police Department (Police
Department). The Police Department received grants of: $623,475 to hire 9 additional sworn
officers under the Accelerated Hiring, Education, and Deployment (AHEAD) program;
$4,500,000 to hire 60 officers under the Universal Hiring Program (UHP); $885,006 to
redeploy 32.4 officer full-time equivalents under the Making Officer Redeployment
Effective (MORE) program of 1995; and $299,050 to redeploy 12.4 officer full-time
equivalents under the MORE program of 1996.

We found that the Police Department violated the following grant requirement:



The Police Department did not provide documentation to support the actual
      redeployment of officers into community policing. Therefore, the Police Department did not
      demonstrate that it enhanced its community policing efforts using the funds provided under
      the COPS MORE grant. Thus, the total grant award amount of the MORE 1995 and MORE 1996
      grants ($1,184,056) is considered unsupported.


This item is discussed in the FINDINGS AND RECOMMENDATIONS section of the report. Our
SCOPE AND METHODOLOGY appear in APPENDIX II.
#####